Report No. D-2011-RAM-006              November 29, 2010




   American Recovery and Reinvestment Act Projects to
   Replace the Fort Buchanan Substation and Repair the
      Roof and Exterior at the Army Reserve Center
                  Aguadilla, Puerto Rico
                                      INSPECTOR GENERAL 

                                    DEPARTMENT OF DEFENSE 

                                       400 ARMY NAVY DRIVE 

                                  ARLINGTON, VIRGINIA 22202-4704 




                                                                              November 29,2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)lCHlEF
                 FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act Projects to Replace the Fort Buchanan
         Substation and Repair the Roof and Exterior at the Army Reserve Center Aguadilla,
         Puerto Rico (Memorandum No. D-2011-RAM-006)

The DOD Office ofInspector General is performing audits of DOD's implementation of Public
Law 111-5, "American Recovery and Reinvestment Act of 2009," February 17,2009 (Recovery
Act). We selected two Army Reserve Recovery Act Projects located in Puelto Rico to review
(see the Audit Methodology section).

   • 	 Project 74299 to repair the substation at Fort Buchanan. The design and build project
       will replace the existing 10 million volt-ampere (MVA) substation with a new 20 MVA
       substation capable of handling current and future loads. One of the two transformers will
       serve as a backup and will automatically switch on when the primmy transfonner is shut
       down for maintenance.

   • 	 Project 74649 to restore and modernize Army Reserve Center Aguadilla buildings 807
       and 808. Restoration and modernization will include repairing walls, ceilings,
       bathrooms, the electrical system, air conditioning, and wiring; replacing pipes containing
       lead; removing asbestos; and installing a wet pipe fire suppression system.

Our audit objective in selecting the two projects was to determine whether:

   • 	 the projects were adequately planned to ensure the appropriate use of Recovery Act funds
       (Planning);

   • 	 the project funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding); and

   • 	 the project contracts contained the required Recovery Act Federal Acquisition Regulation
       (FAR) clauses (Initial Project Execution).

We determined that Projects 74299 and 74649 were justified and met the Recovery Act goals
regarding accountability and transparency. Personnel at Fort Buchanan and the U.S. Army
Corps of Engineers (USACE)-Louisville properly planned, funded, and contracted for the two
projects in accordance with Recovery Act and Office of Management and Budget guidance.
PLANNING

We reviewed DD Form 1391, "Military Construction Project Data," and supporting cost
documentation for Recovery Act Projects 74299 and 74649 at Fort Buchanan and determined
that the projects were properly planned.

Project 74299 - The DD Form 1391 adequately explained the project justification, requirements,
cun-ent state, and impact for renovating the substation and designing and building two new
20 MYA transformers. F O1t Buchanan personnel stated that they used the RS Means
Construction Cost Data Book and the USACE Infrastructure Capacity Analysis Study to prepare
the cost estimates. USACE-Louisville personnel prepared, reviewed, and celtified the
$10.1 million Independent Government Cost Estimate (rGCE)* on January 26, 2010. The
contracting officer and members of the Source Selection Authority Board used a cost and price
analysis to evaluate foUl' contractors' price proposals and determined that the winning proposal
was fair and reasonable and that there were no unbalanced line items.

Project 74649 - The DD Form 1391 explained the project justification, requirements, current
state, and impact for restoring the roof and building exteriors for buildings 807 and 808 at the
Army Reserve Center Aguadilla, Puelto Rico. Prime Engineering and Architecture, Inc.
prepared a Full Facility Assessment Study of the Army Reserve Center for USACE-Louisville.
Fort Buchal}an personnel stated that they prepared the cost estimates on the DD Form 1391 using
the RS Means Construction Cost Data Book and the Full Facility Assessment Study. USACE­
Louisville personnel prepared, reviewed, and celtified the $6.37 million IGCE on February 24,
20 IO. The contracting officer and members of the Source Selection Authority Board evaluated
five contractors' price proposals against the IGCE and comparable market prices from other
contractors. They determined that the winning proposal was fair and reasonable and that there
were no unbalanced line items.

FUNDING

The DOD Expenditure Plan for the American Recovery and Reinvestment Act of2009
designated an Army Reserve fund project list that included Project 74299, valued at $8.5 million,
for replacing the substation at Fort Buchanan and Project 74649, valued at $1.054 million, for
roof and exterior repairs at the Army Reserve Center Aguadilla, Puelto Rico.

Project 74299 - On April 28, 2009, the Depmtment of the Army, Fund Control Officer for the
Assistant Secretary ofthe Army, issued Defense Finance Accounting Service Form 1323,
"Funding Authorization Document," to the USACE Commander for Real Propelty Maintenance,
totaling $39 million in Operation and Maintenance Recovery Act funds. On May 7, 2009, the
USACE Commander issued a Defense Finance Accounting Service Form 1323 to USACE­
Louisville for Real Propelty Maintenance, totaling $49.8 million. On March 11,2010, the

• The terms Independent Government Cost Estimate and Independent Government Estimate are interchangeable.
We used the term Independent Government Cost Estimate. See FAR Subpart 15.404-1.




                                                      2
USACE Commander issued an additional Defense Finance Accounting Service Form 1323 to the
U.S. Army Engineer District authorizing USACE-Louisville to use $3 million in bid savings
from another Recovery Act project to fund the contract award for Project 74229 to replace the
existing electrical substation at Fort Buchanan. The USACE Commander authorized USACE­
Louisville to award a base contract and 3 option years at a cost of $11.5 million.

Project 74649 - On March 26,2010, the USACE Commander issued a Defense Finance
Accounting Service Form 1323 to the u.S. Army Engineer District authorizing USACE­
Louisville to redirect bid savings from another Recovery Act project to award the contract for
Project 74649 to refurbish buildings 807 and 808 at the Army Reserve Center. The USACE
Commander authorized USACE-Louisville to award the project in the amount of$6.98 million.

CONTRACTING

We reviewed the solicitation and award for Recovery Act Projects 74299 and 74649 at FOlt
Buchanan and determined that USACE-Louisville contracting personnel properly solicited and
awarded the contracts for Projects 74299 and 74629.

Project 74299 - On December 10, 2009, USACE-Louisville contracting personnel posted the
presolicitation notice (W912QR-IO-R-0012) on the Federal Business Opportunities (FBO) Web
site. The language in the presolicitation notice met the intent of Recovery Act project
requirements. The synopsis in the presolicitation notice clearly explained the nature ofthe work.
USACE-Louisville contracting personnel competitively solicited offers through a request for
proposal and received four offers. On March 18, 2010, USACE-Louisville contracting office
personnel posted the contract award (W912QR-1O-C-0032) on the FBO Web site. The contract
contained the required Recovery Act clauses. USACE-Louisville contracting personnel awarded
the contract as a firm-fixed-price contract to Lord Electric Company of Puerto Rico, Inc. for
$9.5 million.

Project 74649 - On December 23, 2009, USACE-Louisville contracting personnel posted the
presolicitationnotice (W912QR-IO-R-0015) on the FBO Web site. The language in the
presolicitationnotice met the intent of the Recovery Act project requirements. The synopsis in
the presolicitationnotice clearly explained the nature of the work and informed the public that
this contract was for a small business firm. USACE-Louisville contracting personnel
competitively solicited offers tln·ough a request for proposal and received five offers. On
April 8, 2010, the contracting office posted the contract award (W912QR-IO-C-0047) on the
FBO Web site, and the contract contained the required FAR clauses. USACE-Louisville
contracting personnel awarded the contract as a finn-fixed price contract to Design Build SE for
$5.99 million.

REVIEW OF FORT BUCHANAN AND U.S. ARMY CORPS OF ENGINEERS-LOUISVILLE
DISTRICT INTERNAL CONTROLS

Fort Buchanan and USACE-Louisville internal controls over the planning, funding, and
contracting of the two FOlt Buchanan Recovery Act projects reviewed were effective as they
applied to the audit objectives.


                                                3
AUDIT STANDARDS

We conducted this audit from April through November 2010 in accordance with generally
accepted government auditing standards. Generally accepted govemment auditing standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our conclusions based on our audit objectives.

AUDIT METHODOLOGY

We visited Fort Buchanan and USACE-Louisville to review the two selected projects. We
interviewed program personnel at Fort Buchanan, and cost engineering and contracting personnel
at USACE-Louisville. At both locations, we reviewed requirements, contracting, and financial
documentation from January 2009 to April 201 O. We used this supporting documentation to
determine whether contract solicitations and awards met Office of Management and Budget and
DOD Recovery Act implementation and transparency requirements.

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and Analysis
Division ofthe DOD Office ofInspector General analyzed all DOD agency-funded projects,
locations, and contracting oversight organizations to assess the risk of waste, fraud, and abuse
associated with each. We selected most audit projects and locations using a modified Delphi
teclmique, which allowed us to quantity the risk based on expert auditor judgment, and other
quantitatively developed risk indicators. We used information collected from all projects to
update and improve the risk assessment model. We selected 83 projects with the highest risk
rankings; auditors chose some additional projects at the selected locations.

We did not use classical statistical sampling techniques that would permit generalizing results to
the total population because there were too many potential variables with unknown parameters at
the beginning of this analysis. The predictive analytic techniques employed provided a basis for
logical coverage not only of Recovery Act dollars being expended, but also of types ofprojects
and locations across the Military Services, Defense agencies, State National Guard units, and
public works projects managed by U.S. Army Corps of Engineers.

USE OF COMPUTER-PROCESSED DATA

We used computer-processed data to perform this audit. Specifically, we used posted notices on
the FBO Web site (http://www.fedbizopps.gov) in meeting our audit objectives. We tested the
accuracy ofthe data by comparing the project data reported on the FBO Web site with
documents in the contract file. Our audit focused on the reporting of contract actions on specific
Army projects. From these procedures, we concluded that the DOD data were sufficiently
reliable for our audit purposes.

PRIOR AUDIT COVERAGE

The Governnlent Accountability Office, the Department of Defense Inspector General, and the
Military Departments have issued repolts and memoranda discussing DOD projects funded by


                                                4

the Recovery Act. You can access unrestricted reports at
http://wv..'W.recoverv.gov/accountability.


We appreciate the COUliesies extended to the staff. Please direct questions to me at (703) 604­
9201 (DSN 664--9201). If you desire, we will provide a formal briefing on the results.




                                        r~Stlf:!
                                       -'!'\l 	   Assistant Inspector General
                                                  Acquisition and Contract Management




                                                    5

